June 11, 2010

STEVEN J. FORTE
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT: Management Advisory Report – Assessment of Overall Plant Efficiency
         2010 (Report Number NO-MA-10-001)

This report presents the results of the Postal Service’s progress in reducing workhours
based on recommendations in a prior report.1 Our objective was also to assess the
overall efficiency of the processing and distribution network for fiscal year (FY) 2009
(Project Number 10XG017NO000). This is a cooperative effort with the Postal Service
and addresses operational risk. See Appendix A for additional information about this
review.

Last year, we reported on efficiency levels and mail volume in processing and
distribution centers (P&DCs) and facilities (P&DFs), and recommended the Postal
Service reduce almost 23 million workhours by FY 2011. The goal of the previous effort
was to report out on Postal Service’s efforts to “raise the bar” on productivity levels for
those plants that were the least productive in the network nationwide. We took a similar
approach in this report and plan to conduct this type of analysis annually.

Conclusion

The Postal Service made substantial progress by reducing workhours in the network
from the previous year. Plants that were the least productive in FY 2008 reduced over
18 million workhours (achieving 82 percent of the recommended workhour savings) and
improved productivity by over 6 percent. Moreover, from Quarter 1 (Q1), FY 2009 to Q1,
FY 2010, the Postal Service maintained or improved service. See Appendix B for more
information.

However, we found the Postal Service had not yet fully adjusted workhours in response
to declining mail volume as a result of poor economic conditions, nor achieved all
possible efficiencies in mail processing operations.




1
    Assessment of Overall Plant Efficiency (Report Number NO-MA-09-002, dated May 8, 2009).
Assessment of Overall Plant Efficiency 2010                                                  NO-MA-10-001



We identified five major areas where the Postal Service could realize workhour savings:

        Overtime Hours

        Mail Handling
        Automated and Mechanized Equipment
        Allied Operations
        Manual Operations

The Postal Service could improve operational efficiency by reducing over 16.2 million
workhours by the end of FY 2012. This would allow the Postal Service to achieve at
least median productivity levels in the network and avoid costs of almost $744 million
based on workhour savings for 1 year.2 See Appendix C for a detailed explanation of
this cost avoidance.

Significant Workhour Reductions and Service Improvements

The Postal Service made significant reductions in workhours and improvements to
operational efficiency in FY 2009. For instance, from FY 2008 to FY 2009, management
used 40 million fewer workhours in mail processing,3 18 million of which are attributable
to the lower performing plants. Plants that had below–median productivity levels in FY
2008 achieved 82 percent of the recommended workhour savings and improved
productivity by over 6 percent.

Overall, for all plants productivity also improved by more than 5 percent over the prior
fiscal year and overtime decreased by more than 50 percent compared to FY 2008. In
comparison, the Bureau of Labor Statistics reported a productivity increase of just 2.9
percent in the nonfarm business sector4 as measured by output per hour of all persons.
For additional comparisons to the nonfarm business sector, see Appendix B.

The Postal Service made these reductions while maintaining or improving service from
Q1, FY 2009 to Q1, FY 2010. To the Postal Service’s credit, it achieved these levels
even as it increased the number of 3-digit ZIP codes measured. See Appendix B for our
detailed analysis of this topic.




2
  The cost avoidance of $744 million per year represented almost 20 percent of the Postal Service net loss of $3.8
billion in FY 2009.
3
  These hours are recorded in a category referred to as Function 1. Total Function 1 hours include Network
Distributions Centers (NDCs), International Service Centers (ISCs), Logistics and Distribution Centers (L&DCs),
Priority Hubs, and Processing and Distribution Centers and Facilities.
4
  The nonfarm business sector is a subset of the domestic economy and excludes the economic activities of the
following: general government, private households, nonprofit organizations serving individuals, and farms. The
nonfarm business sector accounted for about 77 percent of the value of gross domestic product (GDP) in 2000.



                                                          2
Assessment of Overall Plant Efficiency 2010                                                  NO-MA-10-001



Changing Economic Conditions

The Postal Service faces the challenge of making additional workhour reductions while
continuing to deal with declining mail volumes and a deteriorating financial condition.
The Postal Service ended FY 2009 with a net loss of almost $3.8 billion and
experienced a volume decrease from FY 2008 to FY 2009 of almost 25 billion
mailpieces — a decrease of 13 percent.5 At the time of our review, the Postal Service
continued to experience downward mail volume trends. The Postal Service ended Q1,
FY 2010 with a net loss of $297 million, as the economic recession contributed to a 4.9
billion mailpiece decline compared with the same period last year. The mail volume
decline in Q1, FY 2010 marked the twelfth consecutive quarter of accelerating volume
declines. See Appendix B for our detailed analysis of this topic.

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. For example, if the 144 plants below-median productivity in FY
2009 achieved just the median productivity level for each respective plant group,6 the
Postal Service could realize workhour savings of over 16.2 million. See Appendix B for
our detailed analysis of this topic.

Potential Sources of Workhour Reductions

We identified several potential sources to achieve the recommended workhour
reductions, which we explain below. The Postal Service could reduce workhours if
casual employees were no longer used. In addition, as of February 2010, 14,416
employees were eligible to retire in plants with below-median productivity levels. This
represents a potential annual workhour reduction of almost 25 million workhours, far
more than needed to achieve the savings identified. See Appendix B for additional
information.

Reduction in Overtime

Management decreased overtime in the network by over 50 percent compared to FY
2008. However, further opportunities exist to reduce overtime. In FY 2009, the Postal
Service used a higher percentage of overtime workhours in plants with below-median
productivity levels than those with above-median productivity levels. If plants below the
median achieve the average overtime percentage of the above-median plants, the
Postal Service would realize savings of more than 1.6 million workhours. See Appendix
B for our detailed analysis of this topic.



5
 Based on the Annual Report for FY 2009.
6
 We divided the facilities that process mail into seven groups ranked according to mail volume outlined in the
Breakthrough Productivity Initiative (BPI). See Appendix A for more information.



                                                          3
Assessment of Overall Plant Efficiency 2010                                                 NO-MA-10-001




Mail Handling

Excessive mail handling used more workhours than necessary to process mail volume
and lowered productivity. In general, plants with lower First Handling Piece (FHP)
productivity7 tended to sort the mail more than plants with higher FHP productivity. For
example:

       On average, large Group 1 plants that operated above median productivity sorted
        each piece of mail 1.79 times from the moment it was received until it was
        dispatched from the facility.8 Group 1 plants with below median productivity on
        average sorted each piece of mail 1.88 times. If all Group 1 plants sorted mail at
        the 1.79 ratio, the Postal Service would save over 2 million workhours.

       Similarly, the Postal Service could save more than 4.3 million workhours if plants
        with below-median productivity levels sorted mail at the average handling ratio of
        plants with above-median productivity levels. See Appendix B for our detailed
        analysis of this topic.

Automated and Mechanized Equipment

Plants that operated below the median FHP productivity generally had lower productivity
in automated and mechanized operations.9 If all plants with below-median FHP
productivity levels increased the number of mailpieces handled per hour by operation to
the average of the plants with above-median FHP productivity, the Postal Service could
save more than 2.8 million workhours in automated operations and over 751,000
workhours in mechanized operations. In addition, plants with below-median productivity
levels generally had higher jams per 10,000 pieces and higher reject rates on Delivery
Barcode Sorters (DBCS) and Automated Flats Sorting Machines (AFSM) 100, indicating
that procedures for jogging and culling the mail may need improvement. See Appendix
B for our detailed analysis of this topic.

Manual Operations

Opportunities to improve efficiency in manual operations were twofold. First, plants with
productivity levels lower than the median also had lower productivity in manual
operations. The Postal Service could save more than 3.8 million workhours if plants with
below-median productivity levels increased the mailpieces handled per hour to the
average of the plants with above-median FHP productivity levels. Second, the Postal
Service did not take full advantage of automated and mechanized equipment and,

7
  FHP productivity was calculated by dividing FHP volume by Function 1 workhours.
8
  The handling ratio was determined by comparing FHP volume to the number of times a piece of mail was handled
from receipt to dispatch.
9
  These operations include automated letter operations and the distribution of flat mail on automated and mechanized
equipment.



                                                         4
Assessment of Overall Plant Efficiency 2010                                                    NO-MA-10-001



consequently, worked an excessive amount of mail manually. The Postal Service’s
manual sort target is no more than 2.5 percent of the total letter volume and 6 percent of
the total flat volume. The Postal Service could save nearly 1.8 million workhours by
using automation to sort letter and flat mail instead of manual sortation. See Appendix B
for our detailed analysis of this topic.

Allied Operations

Plants with below-median productivity levels generally used a larger percentage of
workhours in allied operations10 (referred to as Labor Distribution Code [LDC] 17) than
plants with above-median productivity levels. Allied operations represented the largest
percentage (38 percent) of workhour usage in mail processing operations in FY 2009.
By standardizing the percentage of hours used in allied operations across the network,
as compared with total mail processing workhours used, the Postal Service could save
more than 4.5 million workhours. This represents the greatest opportunity to improve
efficiency and achieve workhour reductions. See Appendix B for our detailed analysis of
this topic.

The Postal Service could improve operational efficiency by reducing over 16.2 million
workhours. This would allow the Postal Service to achieve at least median productivity
levels in the network and avoid costs of almost $744 million based on workhour savings
for 1 year.11 See Appendix C for a detailed explanation of this cost avoidance.

The Postal Service addressed operational efficiency by reducing workhours to better
align with budgeted workhours. For example, they reduced FY 2009 mail processing
workhours by approximately 14 percent from FY 2008 levels. However, management
had not evaluated operational efficiency by assessing performance based on median
productivity for each plant grouping.

We recommend the senior vice president, Operations:

1. Reduce 16.2 million workhours by FY 2012 with an associated economic impact of
   $743,961,610.

2. Periodically evaluate operating efficiency by assessing performance against the
   median productivity level for each plant grouping.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact. See
Appendix D for management’s comments, in their entirety.


10
   These operations are recorded in LDC 17 and include mail preparation, presort operations, traying, sleeving,
opening, pouching, and platform operations.
11
   The 744 million per year represented almost 20 percent of the Postal Service’s net loss of $3.8 billion in FY 2009.



                                                           5
Assessment of Overall Plant Efficiency 2010                          NO-MA-10-001



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. Management has been
proactive with improving efficiency through workhour reductions. In addition,
management has numerous programs in place that addresses the issues identified in
the report.

The OIG considers recommendation one significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Jordan M. Small
    Frank Neri
    Sally K. Haring




                                              6
Assessment of Overall Plant Efficiency 2010                                                     NO-MA-10-001



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail processing is an integrated group of activities12 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
mail to P&DCs and processing and distribution facilities (P&DFs) for processing and
dispatch for a designated service area. The Postal Service has 298 facilities with mail
processing operations.

We divided the facilities that process mail into seven groups ranked by mail volume
outlined in the BPI.13 Chart 1 shows the percentage of mail processing facilities in each
group.

                               Chart 1. PLANT GROUPING BASED ON
                               FY 2006 BPI GROUPINGS (WORKLOAD)



                                  Group 7                          Group 1
                                   16%                              12%
                                                                                 Group 2
                                                                                  11%
                  Group 6
                   16%

                                                                                      Group 3
                                                                                       11%

                           Group 5
                            17%                                         Group 4
                                                                         17%




12
  Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
13
  The Postal Service established the BPI to drive costs out of the organization while creating continuous
improvement capability. The BPI uses comparative monitoring and performance ranking in operating units across the
country. Higher performing units are sometimes used as models to identify best practices. Standard procedures are
based on best practices and training is developed to share performance expectations. Targets are set to drive
performance toward the highest levels.




                                                            7
Assessment of Overall Plant Efficiency 2010                                             NO-MA-10-001




Labor Distribution Codes

The Postal Service compiles workhour, labor use, and other financial reports for
management use by functional category, or LDC.14 For example, LDC 11 is used to
record workhours in automated letter operations, LDC 12 is used to record workhours in
distribution of flat mail on automated and mechanized equipment, and LDC 14 is used
to record manual sortation of letters and flats. The Postal Service also uses LDC 17 to
record hours by employees involved in allied operations or mail processing operations
other than distribution.

The largest percentage of workhour usage in mail processing operations in FY 2009
was in LDC 17 and the largest amount of FHP volume in FY 2009 was in LDC 11.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the Postal Service’s progress in reducing workhours
based on recommendations made in our prior report and to assess the overall efficiency
of the processing and distribution network for FY 2009. This audit is a cooperative effort
with the Postal Service.

To accomplish our objectives, we identified trends in mail volume, workhours, overtime,
and productivity for each of the seven plant groups for FY 2009. We calculated the
median FHP per workhour for FY 2009, ranked the plants within each group, and used
the median productivity to calculate workhour savings for plants falling below the
median level. We calculated workhour savings by raising the productivity level of the
plants below the median level to the median productivity level. We also calculated
overtime and handling ratios for each plant. We examined the costs of manual letter and
flat operations, evaluated staffing and complement, and evaluated whether significant
reductions could be made through attrition. We reviewed workhours, volumes, and
productivity levels for LDCs 11, 12, and 14. We determined the ratio of LDC 17
workhours to total workhours for FY 2009 for each of the seven plant groups.15

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems, which included the National Work Hour Reporting system,
the Management Operating Data System (MODS), the Web Complement Information
System, the Activity Based Costing (ABC) System, and the Enterprise Data Warehouse
System. We did not test the validity of controls over these systems. However, we


14
  Mail processing operations are in the Function 1 category.
15
  We did not include LDCs 10, 13, 15, and 18 in this review for the following reasons: LDC 10 was not assessed
because supervisory hours are based on a ratio of supervisors to employees; supervisory staff will need to be
adjusted as workhours are reduced; LDC 13 was not assessed because the majority of volume is recorded as Total
Pieces Handled or Non Added and because of a large array of equipment and methodology, a reasonable basis for
comparison could not be performed; LDC 15 did not represent a significant total of workhours; and LDC 18
represents a wide variety of functions that could not provide a reasonable basis for comparison.



                                                       8
Assessment of Overall Plant Efficiency 2010                                                NO-MA-10-001



verified the accuracy of the data by confirming our analysis and results with Postal
Service managers and other data sources.

We conducted this review from February through June 2010 in accordance with Quality
Standards for Inspections.16 We discussed our conclusions with management officials
on April 20, 2010, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                     Report             Final Report           Monetary
                   Report Title                     Number                  Date                Impact
     Efficiency of the Oakland International      NO-AR-04-007           3/31/2004             $17,013,959
     Service Facility and the Regatta
     Facility
     Efficiency of the San Francisco              NO-AR-04-006            3/31/2004               44,263,283
     International Service Center (ISC) and
     the General Service Administration
     Facility
     Efficiency of the New York                   NO-AR-04-009            9/24/2004               98,355,534
     International Service Center (ISC)
     Efficiency of the Air Mail Records Unit      NO-AR-04-011            9/24/2004                9,248,967
     at the New York International Service
     Center
     Efficiency Review of the Mansfield,          NO-AR-05-004            12/8/2004               17,183,404
     OH Main Post Office
     Efficiency Review of the Akron, OH           NO-AR-05-009            3/30/2005               73,996,558
     Processing and Distribution Center
     Efficiency of the Air Mail Records Unit      NO-AR-05-010            4/28/2005                1,847,858
     at the Los Angeles International
     Service Center
     Efficiency of the Los Angeles                NO-AR-05-011            6/17/2005               26,075,474
     International Service Center
     Efficiency of the Air Mail Records Unit      NO-AR-05-012             9/6/2005                2,563,277
     at the San Francisco International
     Service Center
     Efficiency Review of the Canton, OH          NO-AR-05-013            9/22/2005               63,617,713
     Processing and Distribution Center
     Efficiency of the Chicago Air Mail           NO-AR-06-002           12/22/2005                1,121,794
     Records Unit at the J. T. Weeker
     International Service Center
     Efficiency Review of the Washington          NO-AR-06-003            2/22/2006             118,383,220
     Bulk Mail Center



16
   The President’s Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency
(ECIE) last promulgated these standards in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        9
Assessment of Overall Plant Efficiency 2010                                 NO-MA-10-001



                                                 Report      Final Report      Monetary
                  Report Title                  Number           Date           Impact
    Efficiency of Carrier Sequence            NO-AR-06-005     8/2/2006           3,688,930
    Barcode Sorters
    Efficiency Review of the Los Angeles,     NO-AR-06-006    9/12/2006         192,173,980
    CA, Worldway Air Mail Center
    Efficiency Review of the Bridgeport       NO-AR-07-004    4/25/2007          17,740,107
    Processing and Distribution Facility,
    Bridgeport, CT
    Efficiency Review of the Dallas Bulk      NO-AR-07-005    5/31/2007         134,971,638
    Mail Center
    Summary Audit on the Timeliness of        NO-AR-08-003    3/28/2008         231,337,397
    Mail Processing, Transportation and
    Delivery in the Chicago District
    Assessment of Overall Plant               NO-MA-09-002    5/8/2009          969,495,708
    Efficiency
    Review of Sunday Operations at the        NO-AR-09-012    9/25/2009          38,250,365
    Denver Processing and Distribution
    Center
    Dallas Processing and Distribution        NO-AR-10-003   02/24/2010          11,997,208
    Center Outgoing Mail Consolidation

                                                                Total        $2,073,326,374



As shown in the preceding chart, we have conducted 20 efficiency reviews of mail
processing operations. These reviews showed that management had not evaluated
operational efficiency by assessing performance against productivity targets and other
plants and adjusting staff and equipment resources in response to workload changes.
Consequently, more workhours than necessary were used to process the mail. These
reviews identified opportunities to improve efficiency and reduce more than 26.6 million
workhours that would produce over $2 billion in savings over 10 years. In response to
our recommendations, Postal Service management reduced workhours to better align
with budgeted workhours.




                                                  10
   Assessment of Overall Plant Efficiency 2010                                                     NO-MA-10-001



                                    APPENDIX B: DETAILED ANALYSIS

   Follow-up to Prior Audit

   In the first report,17 we recommended workhour savings of 22,855,321, with an
   associated economic impact of $969,495,708. We compared the performance of the
   plants identified as having below-median productivity levels in FY 2008 with their
   performance in FY 2009. We found that plants that were below median in FY 2009
   improved productivity by 6.05 percent. These plants achieved 82 percent of our
   recommended workhour reduction and reduced workhours by 18,689,908 (14.14
   percent) as shown in Table 1.

    TABLE 1. BELOW-MEDIAN PLANTS’ WORKHOUR SAVINGS FY 2008 TO FY 2009

                                                                                                                 Percentage
                                                                                              Associated             of
  Plant      FY 2008          FY 2009                                  Recommended
                                              Savings Achieved                                Economic          Recommended
Grouping    Workhours        Workhours                                    Savings
                                                                                                Impact             Savings
                                                                                                                  Achieved
Group 1      53,519,276       46,383,843               (7,135,432)           10,063,889      $426,752,086              71%
Group 2      25,238,997       21,621,746               (3,617,252)             4,215,631     $178,692,106              86%
Group 3      17,008,954       14,647,606               (2,361,348)             2,526,837     $107,518,518              93%
Group 4      18,016,991       15,696,450               (2,320,541)             3,138,620     $133,021,541              74%
Group 5       9,756,923         8,227,137              (1,529,785)             1,517,845     $ 64,371,851             101%
Group 6       5,414,382         4,726,232                (688,150)               584,850     $ 24,868,649             118%
Group 7       3,237,672         2,200,272              (1,037,400)               807,650     $ 34,270,955             128%
 Total     132,193,194       113,503,287              (18,689,908)           22,855,321      $969,495,708              82%

   We also compared the performance of all plants in FY 2008 with their performance in
   FY 2009. These sites do not include Network Distributions Centers (NDCs),
   International Service Centers (ISCs), Logistics and Distribution Centers (L&DCs), and
   Priority Hubs and, therefore, only represent 81 percent of total Function 1 workhours.
   The plants reduced workhours by 32,637,112 from FY 2008 to FY 2009.

   Significant Workhour Reductions and Service Improvements

   From FYs 2008 to 2009, the Postal Service made significant reductions in workhours
   and improvements to operational efficiency. For instance, from FYs 2008 to 2009,
   management used 40 million fewer workhours in mail processing.18 Overall mail
   processing productivity improved from an average 750 mailpieces per hour in FY 2008
   17
      Management Advisory Report – Assessment of Overall Plant Efficiency (Report Number NO-MA-09-002, dated
   May 8, 2009).
   18
      These hours are recorded in a category referred to as Function 1, which includes hours worked in NDCs, ISCs,
   L&DCs, Priority Hubs, and the P&DCs and P&DFs. There was a total 40 million workhour savings in Function 1
   hours, 32.6 million of which were attributable to all plants and 18.6 attributable to plants below median productivity.



                                                              11
Assessment of Overall Plant Efficiency 2010                                                      NO-MA-10-001



to an average 789 mailpieces per hour in FY 2009, representing a productivity increase
of over 5 percent. Mail processing overtime was reduced 50.9 percent from FYs 2008 to
2009.

We reviewed Bureau of Labor Statistics trends and found that in the nonfarm business
sector, productivity, as measured by output per hour of all persons, increased just 2.9
percent in 2009. Output in the nonfarm business sector decreased by 3.6 percent
compared to a Postal Service volume decline of 13 percent. This decrease in output for
private industry was the largest since this statistic was complied beginning in 1948 and
the decrease in volume was the largest in Postal Service history. Workhours in the
nonfarm business sector decreased by 6.4 percent compared to the Postal Service
Function 1 workhour decline of 14 percent. Overtime rate for the nonfarm business
sector in 2009 was 7 percent compared to the Function 1 overtime rate of 4 percent.

The Postal Service made these improvements and maintained service in External First-
Class (EXFC) measurement system service categories of overnight and 2-day, and had
a one-point decline in 3-day service as shown in Table 2. These service levels were
achieved even as the Postal Service expanded the number of 3-digit ZIP codes
included in the EXFC measurement system from 463 to 891 in FY 2009.

                                     TABLE 2. EXFC SERVICE SCORES

                              Fiscal Year          Overnight         2-Day           3-Day
                                  2008                96               94              92
                                  2009                96               94              91

Service scores in all EXFC categories were maintained or improved from Quarter 1 of
FY 2009 to Quarter 1 of FY 2010 as shown in Table 3.

                                     TABLE 3. EXFC SERVICE SCORES

                          Fiscal Year       Quarter     Overnight           2-Day         3-Day
                              2009             1             96              92             86
                              2010             1             96              92             89

Despite continuing economic challenges, the Postal Service continued to deliver high
levels of service, with 94 percent of customers surveyed rating the Postal Service as
“excellent, very good or good” in the period July 1 to September 30, 2009. In addition,
the Ponemon Institute19 named the Postal Service the “Most Trusted Government
Agency” for the fifth year in a row. More than 87 percent of the 7,000 Americans
surveyed in the 2009 Privacy Trust Study of the United States Government ranked the
Postal Service first among 74 agencies. The top ranking means Americans trust the

19
     The Ponemon Institute is a research center dedicated to privacy, data protection, and information security policy.



                                                            12
Assessment of Overall Plant Efficiency 2010                                                     NO-MA-10-001



Postal Service as the government agency best able to keep their information safe and
secure.

In FY 2009, the number of customer complaints regarding delayed mail decreased 1.7
percent compared to FY 2008 and, according to a Gallup Poll conducted in June 2009,
95 percent of Americans said it was important to them, personally, that the Postal
Service stay in business.

Changing Economic Trends

The Postal Service faces the challenge of making additional workhour reductions while
continuing to deal with declining mail volumes and a deteriorating financial condition.
The Postal Service ended FY 2009 with a net loss of almost $3.8 billion. The loss
occurred despite $6.1 billion in cost-cutting measures that included reductions in the
number of employees, overtime hours, transportation, and other costs. Mail volume in
FY 2009 totaled 177 billion pieces, a decline of 13 percent, or 25 billion pieces,
compared to 2008, the largest in Postal Service history. Declining mail volume was
attributed mainly to the economic environment, competition, and electronic diversion.20
Total operating revenue decreased from $74.9 billion in FY 2008 to $68 billion in FY
2009 (a 9 percent decrease) while operating expenses totaled $71.8 billion.

At the time of our review, the Postal Service continued to experience downward mail
volume trends. The Postal Service ended Q1, FY 2010 with a net loss of $297 million,
as the economic recession contributed to a 4.9 billion mailpiece decline compared with
the same period last year. An 8.87 percent drop in volume in Q1, FY 2010 marked the
twelfth consecutive quarter of accelerating volume declines. The Postal Service is
expecting mail volume to continue to decrease throughout 2010 despite economic
indicators pointing to a slow recovery.

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II dated
December 20, 2006, highlights “. . .the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”




20
  Examples of electronic diversion include filing taxes electronically, receiving electronic refunds, and using
electronic publications.



                                                           13
Assessment of Overall Plant Efficiency 2010                                              NO-MA-10-001




Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. We compared FHP productivity among the seven plant
groupings21 and determined the median FHP productivity for each group. We found that
if the 144 plants with below-median productivity in FY 2009 achieved just the median
productivity level for each respective plant group,22 the Postal Service could realize
workhour savings of almost 16.2 million and avoid costs of almost $744 million 23 in a
single year. For example, if Group 1 plants below the median increased their
productivity to the average of the above-median plants (841 pieces per hour); the Postal
Service could save over 6.6 million workhours – 41 percent of the almost 16.2 million
workhours. See Table 4.

                       TABLE 4. BASELINE WORKHOUR REDUCTIONS

                                                                            Percentage
                           Plant          Median FHP        Group Plant      of Total
                         Grouping         Productivity       Savings         Savings
                           Group 1             841            6,605,764            40.9%

                           Group 2             958            2,593,725            16.1%

                           Group 3             939            2,176,348            13.5%

                           Group 4            1,050           2,962,436            18.3%

                           Group 5            1,208           1,127,394             7.0%

                           Group 6            1,217             445,597             2.8%

                           Group 7            1,383             239,232             1.5%

                            Total                            16,150,495


The recommended savings of nearly 16.2 million workhours represents about a15
percent decrease in the 108,366,658 workhours used by plants that operated below the
median FHP productivity level in FY 2009 and an 8 percent decrease in the
201,566,048 workhours used by all plants. See Table 5.




21
   For this analysis, we used plant groupings based on FY 2006 BPI Groupings (Workload; see Appendix A.) We
based savings on FHP mail volume and based productivity on median performers.
22
   We divided the facilities that process mail into seven groups ranked according to mail volume outlined in the
Breakthrough Productivity Initiative (BPI). See Appendix A for more information.
23
   We based workhour reductions on FY 2009 usage and used the Level 06 fully loaded FY 2009 clerk rate of $45.67
and the Level 05 fully loaded FY 2009 mail handler rate of $47.08 (see Appendix C).



                                                       14
Assessment of Overall Plant Efficiency 2010                                           NO-MA-10-001



                      TABLE 5. OPPORTUNITY HOUR PERCENTAGE
                            FOR PLANTS BELOW-MEDIAN

                                       FY 2009
                                      Function 1
                      Plant           Workhour              Group
                    Grouping            Usage            Plant Savings        Percentage
                     Group 1             43,887,481          6,605,764             15.05%
                     Group 2             20,433,679          2,593,725             12.69%
                     Group 3             13,927,424          2,176,348             15.63%
                     Group 4             15,423,286          2,962,436             19.21%
                     Group 5              7,725,942          1,127,394             14.59%
                     Group 6              4,718,013               445,597           9.44%
                     Group 7              2,250,832               239,232          10.63%
                      Total             108,366,658         16,150,495             14.90%
                   Overall Total      201,566,048                                   8.01%

Potential Sources of Workhour Reductions

As shown in Table 6, we identified several potential sources to improve efficiency and
achieve recommended workhour reductions. These potential sources total almost 19.8
million workhours, which represents 122.5 percent of the recommended savings, far
more than needed to achieve the savings identified.

           TABLE 6. POTENTIAL SOURCES OF WORKHOUR REDUCTIONS

                                                Potential           For Detailed Explanation See
                                                Workhour           The Following Sections in this
        Source Of Workhour Reduction            Savings                       Appendix
       Reduce Overtime                            1,659,007               Overtime Usage
       Reduce Handling Ratio                      4,377,691            Excessive Mail Handling
       Reduce Manual Sortation of Letters         1,011,581           Excess Manual Letter Mail
       Reduce Manual Sortation of Flats             782,878            Excess Manual Flat Mail
       Improve Efficiency in LDC 11                                     Automated Letter Mail
                                                    2,833,330
       Operations                                                            Processing
       Improve Efficiency in LDC 12                                Mechanized and Automated Flat
                                                        751,649
       Operations                                                          Mail Processing
       Improve Efficiency in LDC 14
                                                    3,854,992               Manual Operations
       Operations
       Improve Efficiency in LDC 17
                                                    4,516,662               Allied Operations
       Operations
                      TOTAL                        19,787,790
         FHP PRODUCTIVITY SAVINGS                  16,150,495                  Appendix C
                 PERCENTAGE                           122.5%




                                                   15
   Assessment of Overall Plant Efficiency 2010                                                 NO-MA-10-001



   Human Resources

   As of February 2010, 14,416 employees in plants below the median productivity level
   were eligible to retire. This represents a potential annual workhour reduction of almost
   25 million workhours, far more than needed to achieve the savings identified. As of that
   same date, there were also 2,106 casual employees. The Postal Service could reduce
   3.6 million workhours if casual employees were no longer used.24 See Tables 7 and 8.

                         TABLE 7. POTENTIAL COMPLEMENT REDUCTION
                               FOR PLANTS BELOW THE MEDIAN

                 Total                            Career Entered                                    Percentage of
   Plant       Function 1        Retirement       On Duty After                                         Total
 Grouping      Employees          Eligible           1/1/2004            Casuals         Total       Employees
  Group 1          22,839               6,331               1,330             573         8,234         36%
  Group 2          10,637               2,709                 656             513         3,878         36%
  Group 3           7,457               1,756                 778             429         2,963         40%
  Group 4           7,943               2,095                 808             235         3,138         40%
  Group 5           3,859                 816                 510             189         1,515         39%
  Group 6           2,118                 477                 323              99           899         42%
  Group 7           1,106                 232                 189              68           489         44%
Total              55,959              14,416               4,594           2,106        21,116         38%



                           TABLE 8. POTENTIAL WORKHOUR REDUCTION
                               FOR PLANTS BELOW THE MEDIAN25

                 Total                            Career Entered                                      Percentage
  Plant       Function 1         Retirement       On Duty After                                        of Total
Grouping      Employees           Eligible           1/1/2004           Casuals          Total        Employees
 Group 1       39,557,148         10,965,292            2,303,560         992,436      14,261,288        36%
 Group 2       18,423,284           4,691,988           1,136,192         888,516       6,716,696        36%
 Group 3       12,915,524           3,041,392           1,347,496         743,028       5,131,916        40%
 Group 4       13,757,276           3,628,540           1,399,456         407,020       5,435,016        40%
 Group 5        6,683,788           1,413,312             883,320         327,348       2,623,980        39%
 Group 6        3,668,376             826,164             559,436         171,468       1,557,068        42%
 Group 7        1,915,592             401,824             327,348         117,776         846,948        44%
  Total        96,920,988         24,968,512            7,956,808       3,647,592      36,572,912        38%




   24
      In plants below the median productivity level, 4,594 career employees entered the workforce after January 1, 2004.
   However, present union contracts protect all career employees from layoffs. These contracts expire in 2010 and
   2011. Although management cannot force employees into retirement, the Postal Service offered an incentive in
   October 2009 to retirement-eligible employees covered by the American Postal Workers Union 2006-2010 national
   agreement and the National Postal Mail Handlers Union 2006- 2011 national agreement. Approximately 9,600
   Function 1 employees retired under this incentive.
   25
      We based workhour savings on 1,732 hours per year.



                                                            16
Assessment of Overall Plant Efficiency 2010                                                   NO-MA-10-001



Overtime Usage

Management decreased overtime in the network by over 50 percent compared to FY
2008. However, further opportunities exist to reduce overtime. The Postal Service could
stabilize overtime usage and save more than 1.6 million workhours. When management
does not properly monitor and control overtime, the Postal Service incurs higher labor
costs because these workhours are paid at a higher premium rate.

For example, Group 1 plants operating above median FHP productivity levels had an
average overtime percentage rate of 3.12 percent. If all Group 1 plants operated at this
overtime ratio, the Postal Service could save 475,903 workhours. Overall, the Postal
Service could save more than 1.6 million workhours if all plants with below-median FHP
productivity reduced their overtime percentages to the average of the plants with above-
median FHP productivity. See Table 9.

                               TABLE 9. OVERTIME CALCULATIONS

                                              Above-Median
                                              Productivity –
                                                Average                Group
                             Plant              Overtime              Workhour
                           Grouping            Percentage             Savings
                             Group 1               3.12%                    475,903
                             Group 2               3.56%                    448,697
                             Group 3               4.43%                    185,394
                             Group 4               4.26%                    172,086
                             Group 5               5.15%                    303,898
                             Group 6               5.94%                     38,789
                             Group 7               5.93%                     34,242
                              Total                                       1,659,007

Excessive Mail Handling

The Postal Service could reduce the number of times mail is handled and save more
than 4.3 million workhours. Excessive mail handling uses more workhours than
necessary to process mail volumes, which means that productivity is lower.26 In general,
plants with lower FHP productivity levels tended to sort the mail more often than plants
with high FHP productivity levels. For example, on average, Group 1 plants operating

26
  We calculated the handling ratio by comparing FHP volume and the total piece handlings (TPH) volume. TPH
measures the number of handlings used to distribute each piece of mail from receipt to dispatch. As an example, if
the handling ratio is 1.5 then the average piece of mail was handled 1.5 times from the moment it was received until it
was dispatched from the facility. Management uses this information to measure performance and efficiency. This ratio
can vary depending on mail flows and operating plans.



                                                          17
Assessment of Overall Plant Efficiency 2010                              NO-MA-10-001



above the median FHP productivity sorted a piece of mail 1.79 times from the moment it
was received until it was dispatched from the facility. Group 1 plants with below median
productivity on average sorted each piece of mail 1.88 times. If all Group 1 plants sorted
mail at the 1.79 ratio, the Postal Service could save over 2.0 million workhours. Further,
the Postal Service could save more than 4.3 million workhours if plants with below-
median FHP productivity sorted mail at the average handling ratio of the plants with
above-median FHP productivity levels. See Table 10.

                       TABLE 10. HANDLING RATIO CALCULATION

                                          Above-Median
                                          Productivity –     Group
                            Plant        Average Handling   Workhour
                          Grouping            Ratio         Savings
                           Group 1             1.79          2,044,018
                           Group 2             1.85            422,187
                           Group 3             1.90            172,233
                           Group 4             1.86            666,405
                           Group 5             1.71            563,935
                           Group 6             1.74            305,427
                           Group 7             1.64            203,487
                             Total                           4,377,691


Automated and Mechanized Equipment

Plants that operated below the median FHP productivity level generally had lower
productivity in automated and mechanized operations. If all plants with below-median
FHP productivity increased the pieces handled per hour to the average of the plants
with above-median FHP productivity, the Postal Service could save more than 2.8
million workhours in automated operations and more than 751,000 workhours in
mechanized operations. In addition, plants with below-median productivity generally had
higher jams per 10,000 pieces, and higher reject rates on the DBCS machines and on
the AFSM 100s indicating that procedures for jogging and culling the mail may need
improvement.

Automated Letter Mail Processing – LDC 11

Plants that operate below the median FHP productivity level generally had lower
productivity in LDC 11. For example, Group 1 plants operating above median FHP
productivity had an average LDC 11 productivity of 3,900 pieces per hour. If all Group 1
plants operated at this productivity level, the Postal Service could save 1.3 million
workhours. Further, the Postal Service could save more than 2.8 million workhours if all
plants with below-median FHP productivity levels increased the pieces handled per hour




                                                 18
Assessment of Overall Plant Efficiency 2010                                  NO-MA-10-001



in LDC 11 operations to the average of the plants with above-median FHP productivity.
See Table 11.

                                      TABLE 11. LDC 11 FY 2009

                                               Above-Median
                                               Productivity –    Group
                             Plant            Average LDC 11    Workhour
                           Grouping             Productivity    Savings
                            Group 1                3,900         1,341,820

                            Group 2                3,859          455,972

                            Group 3                3,523          152,261

                            Group 4                4,001          518,330

                            Group 5                4,682          189,911

                            Group 6                4,794          116,254
                            Group 7                5,485           58,782
                              Total                              2,833,330

Mechanized and Automated Flat Mail Processing – LDC 12

Plants with FHP productivity levels below the median also had lower LDC 12
productivity on average. For example, Group 1 plants operating above the median FHP
productivity had an average LDC 12 productivity of 1,733 pieces per hour. If all Group 1
plants operated at this productivity level, the Postal Service could save 105,255
workhours. Further, the Postal Service could save 751,649 workhours if all plants with
below-median FHP productivity levels increased the pieces handled per hour in LDC 12
operations to the average of the plants with above-median FHP productivity. See Table
12.




                                                     19
Assessment of Overall Plant Efficiency 2010                                             NO-MA-10-001




                                   TABLE 12. LDC 12 FY 2009

                                               Above-Median
                                               Productivity –         Group
                              Plant           Average LDC 12         Workhour
                            Grouping            Productivity         Savings
                             Group 1               1,733                105,255
                             Group 2               1,727                144,818
                             Group 3               2,234                139,446
                             Group 4               1,892                160,297

                             Group 5               2,020                 88,394

                             Group 6               1,544                 92,784
                             Group 7               1,295                 20,654
                               Total                                    751,649

Throughput, Jam Rates, and Reject Rates

The average throughput for the DBCS was lower in Group 1 plants with below-median
FHP productivity than in plants with above-median productivity. In addition, the DBCS
and the AFSM 100 jam reject rates were higher in plants with below-median FHP
productivity levels. These trends indicate that management at these plants may not be
properly instructing employees on procedures for jogging and culling the mail. In
addition, equipment at these plants may not be properly or sufficiently maintained. See
Tables 13 and 14.

                              TABLE 13. GROUP 1 DBCS FY 2009

                                                Average                      Reject
                         Group 1 Plants        Throughput         Jam Rate    Rate

                          Above-Median
                                                         37,245       2.07        1.0

                          Below-Median
                                                         37,088       2.31        1.1
                            Difference                      157       -.24        -.1




                                                    20
Assessment of Overall Plant Efficiency 2010                                        NO-MA-10-001




                             Table 14. Group 1 AFSM 100 FY 2009

                                               Average                   Reject
                          Group 1 Plants      Throughput     Jam Rate     Rate

                          Above-Median             14,945        23.68       3.9

                          Below-Median             14,967        29.49       4.7

                            Difference                 -22       -5.81      -0.8

Manual Operations

Opportunities to improve efficiency in manual operations were twofold:

       Plants with FHP productivity below the median also had lower productivity in
        manual operations.

       Management did not take full advantage of automated and mechanized
        equipment and, consequently, worked an excessive amount of mail manually.

Manual Operations – LDC 14

Plants with FHP productivity lower than the median also had lower productivity in LDC
14. For example, Group 1 plants operating above median FHP productivity had an
average LDC 14 productivity of 383 mailpieces per hour. If all Group 1 plants operated
at the average of 383 mailpieces per hour, the Postal Service could save more than 2.1
million workhours. Further, the Postal Service could save more than 3.8 million
workhours if all plants with below-median FHP productivity levels increased the
mailpieces handled per hour in LDC 14 operations to the average of the plants with
above-median FHP productivity levels. See Table 15.




                                                  21
Assessment of Overall Plant Efficiency 2010                                 NO-MA-10-001




                                     TABLE 15. LDC 14 FY 2009

                                               Above-Median
                                               Productivity–    Group
                            Plant             Average LDC 14   Workhour
                          Grouping              Productivity   Savings
                           Group 1                 383          2,180,515

                           Group 2                 365            526,530

                           Group 3                 391            368,416

                           Group 4                 373            344,987

                           Group 5                 515            229,303

                           Group 6                 522             97,343

                           Group 7                 688            107,898
                            Total                               3,854,992

Excess Manual Letter Mail

Plants that operated at below median FHP productivity levels generally worked an
excessive amount of letter mail manually. The Postal Service manual sort target is no
more than 2.5 percent of the total letter volume. However, in FY 2009, plants with less
than median FHP productivity sorted an excess of more than 498.7 million letters
manually. The largest percentage (42.2) of excess manual letters was at Group 2
plants. The Postal Service could save more than 1 million workhours by using
automation, rather than manual methods, to sort letter mail. See Table 16.




                                                     22
Assessment of Overall Plant Efficiency 2010                                       NO-MA-10-001




                           TABLE 16. EXCESS MANUAL LETTERS

                                    Excess Letters
                                    Worked Over 2.5         Group       Percentage
                      Plant         Percent of Total       Workhour      of Excess
                    Grouping         Letter Volume         Savings        Letters
                     Group 1                  42,033,708      85,262      8.43%

                     Group 2              210,428,326        426,839     42.20%

                     Group 3                  59,042,667     119,764     11.84%

                     Group 4                  45,514,328      92,323      9.13%

                     Group 5                  48,490,804      98,360      9.72%

                     Group 6                  32,790,922      66,514      6.58%

                     Group 7                  60,401,316     122,520     12.11%
                      Total               498,702,070       1,011,581

Excess Manual Flat Mail

Plants that operated at below-median FHP productivity levels also generally worked an
excessive amount of flat mail manually. The Postal Service manual sort target is no
more than 6 percent of the total flat volume. However, in FY 2009, plants with less than
median FHP productivity sorted an excess of 270 million flats manually. The largest
percentage (47) of excess manual flats was at Group 1 plants. The Postal Service could
save 782,878 workhours by using automation to sort flat mail, instead of manual
sortation. See Table 17.




                                                     23
Assessment of Overall Plant Efficiency 2010                                      NO-MA-10-001




                             TABLE 17. EXCESS MANUAL FLATS

                                     Excess Flats
                                    Worked Over 6           Group      Percentage
                       Plant        Percent of Total       Workhour     of Excess
                     Grouping        Flat Volume           Savings         Flats
                      Group 1            126,907,406         367,965    47.00%

                      Group 2                 36,067,937     104,578    13.36%

                      Group 3                 27,836,684      80,712    10.31%

                      Group 4                 35,699,309     103,509    13.22%

                      Group 5                 12,644,030      36,661     4.68%

                      Group 6                 19,079,606      55,321     7.07%

                      Group 7                 11,771,936      34,132     4.36%
                        Total            270,006,907         782,878

Allied Operations – LDC 17

Plants with below-median FHP productivity levels used a greater percentage of
workhours in allied operations or LDC 17 than plants with above-median FHP
productivity levels. As an example, Group 1 plants with above-median FHP productivity
levels used 36 percent of workhours in LDC 17. By standardizing the percentage of
hours used in allied operations across the network, as compared with total mail
processing workhours used, Group 1 plants could reduce more than 1.8 million
workhours. Further, by standardizing the percentage of workhours used in LDC 17 in all
plant groups, the Postal Service could save more than 4.5 million workhours. See Table
18.




                                                     24
Assessment of Overall Plant Efficiency 2010                                  NO-MA-10-001




                                      TABLE 18. LDC 17 FY 2009

                                             Above-Median
                                              Productivity
                                            Average LDC 17       Group
                             Plant        Percentage To Total   Workhour
                           Grouping            Function 1       Savings
                            Group 1              36.49           1,827,998

                            Group 2              32.98           1,222,182

                            Group 3              36.11             583,092

                            Group 4              35.77             435,877

                            Group 5              36.35             265,280

                            Group 6              37.06             136,410

                            Group 7              38.37              45,823
                              Total                              4,516,662




                                                  25
Assessment of Overall Plant Efficiency 2010                                                   NO-MA-10-001



                                   APPENDIX C: MONETARY IMPACT

                  Table 19: Calculation of Unrecoverable Questioned Costs27

                  Recommended Action
                     and Employee                 Workhour          Workhour        Cost Avoidance
                   Category Impacted              Reduction           Rate          Based on 1 FY
                      Level 6 Clerk                11,633,833          $45.67         $531,317,154
                   Level 5 Mail Handler             4,516,662          $47.08          212,644,456
                           Total                   16,150,495                         $743,961,610

To calculate the total of unrecoverable questioned costs, we determined the median
FHP productivity for each group and found that 144 plants throughout the country
operated at FHP productivity below the median. If the plants with below-median
productivity achieved just the median productivity level for each respective plant group,
the Postal Service could realize workhour savings of 16,150,495 and avoid costs of
$743,961,610 in a single year.

We determined the workhours used by clerks and mailhandlers in each group and
multiplied by the appropriate workhour rate. For example, if Group 1 plants below the
median increased their productivity to the average of the above-median plants, the
Postal Service could save 6,605,764 workhours, representing an economic impact of
$305,631,267, as shown in Table 20.

                         Table 20: Associated Economic Impact by Group

                                             Recommended                       Associated
                 Plant Grouping
                                            Workhour Savings                 Economic Impact
                         1                         6,605,764                     $305,631,267
                         2                         2,593,725                     $119,113,703
                         3                         2,176,348                     $ 99,946,172
                         4                         2,962,436                     $136,046,297
                         5                         1,127,394                     $ 51,774,238
                         6                          445,597                      $ 20,463,486
                         7                          239,232                      $ 10,986,447
                        Total                     16,150,495                     $743,961,610




27
     Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.



                                                           26
Assessment of Overall Plant Efficiency 2010                NO-MA-10-001



                                APPENDIX D: MANAGEMENT’S
                                       COMMENTS




                                              27
Assessment of Overall Plant Efficiency 2010        NO-MA-10-001




                                              28
